                                      J                                         I
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                                                                                                               I




 Case Number: A03030012                                                                       Page 1 of 1



          Our office received an allegation that falsified letters of support were submitted in conjunction
          with an NSF proposal.1 ldentical letters of support were submitted to NSF with a similar
          proposal2 one year earlier. Comparing the two sets of support letters, they appear identical
          except that the dates were changed on the letters accompanying the most recent NSF proposal.
          This made it appear that the original letters of support had been altered to make them appear to
          be more recently written.

         We wrote to the subject who confirmed that the dates had been changed on the letters. The
         subject took "111 responsibility" but claimed that his former graduate student was responsible for
         assembling the most recent proposal and had apparently changed the dates on the support letters
         to make them appear more recent. The subject also provided evidence that his collaborator was
         responsible for obtaining the original letters of support and had provided the subject with an
         email stating that the letters of support were still valid for the more recent proposal.

          We were unable to contact the former graduate student to confirm the subject's explanation. We
          confirmed with the institution that the graduate student had been enrolled at the institution and
          worked under the direction of the subject. The institution also confirmed that the graduate
          student had left the university and returned to his home abroad. No forwarding address was
          available.

          Our conclusion is that the dates on the letters of support submitted with the original proposal
          were altered to make them appear more timely with the submission of the more recent proposal.
          We were unable to determine if the graduate student was responsible for the falsification, as
          claimed by the subject, as he has left the country. The subject is ultimately responsible for the
          content of the proposal and has accepted 111responsibility for the alleged actions of his graduate
          student.

          We wrote a letter to the subject reminding him of his responsibility regarding the entire content
          of any proposal submitted to NSF and the potential ramifications should falsified documents be
          found in future proposals he submits. Accordingly, this case is closed and no further action will
          be taken.




      -:
NSF OIG Form 2 (1 1/02)
